                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


        AUD-HCI-13-02                            Office of Audits                        December 2012




      Audit of U.S. Department of State Use of

           Short-Term Leases Overseas





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                                           United States Departme nt of State
                                                           and the Broadcas ting Board of Governors

                                                           Office of Inspector General




                                         PREfACE


     Thi s report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of \978 , as amended, and Section 209 of the Foreign Service Act of \980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General
                                  UNCLASSIFIED




Acronyms
CGFS       Bureau of the Comptroller and Global Financial Services
DS         Bureau of Diplomatic Security
FAH        Foreign Affairs Handbook
FAM        Foreign Affairs Manual
FASAB      Federal Accounting Standards Advisory Board
ICASS      International Cooperative Administrative Support Services
LTL        long-term lease
OBO        Bureau of Overseas Buildings Operations
OIG        Office of Inspector General
STL        short-term lease




                                  UNCLASSIFIED

                                                            UNCLASSIFIED



                                                         Table of Contents
Section                                                                                                                                      Page

Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................2 


Objective ..........................................................................................................................................4 


Audit Results................................................................................................................................... 5 

       Finding A. Department Regulations Inhibit Lease Options and May Adversely Impact
       Lease Costs... .......................................................................................................................5 

       Finding B. Accounting and Reporting of Make-Ready Costs at Posts Need
       Improvement... ...................................................................................................................12 


List of Recommendations ..............................................................................................................15 


Appendices
      A. Scope and Methodology...............................................................................................16 

      B. Selected Leasing Costs and Funding Responsibilities of Agencies Occupying
      U.S. Government-Held Properties .....................................................................................21 

      C. Office of Inspector General Interim Audit Information Memorandum .......................22 

      D. Information Memorandum for Lease Conversion .......................................................24 

      E. Bureau of Overseas Buildings Operations Response ...................................................26 

      F. Bureau of the Comptroller and Global Financial Services ...........................................29 

      G. Bureau of Diplomatic Security Response ....................................................................31 


Major Contributors to This Report ................................................................................................34 





                                                            UNCLASSIFIED

                                             UNCLASSIFIED


                                         Executive Summary

        As of September 30, 2011, about 97 percent of the Department of State’s (Department)
real property operating leases were leased on a short-term basis. Annual rental cost for these
leases in FY 2011 totaled about $459 million. The full cost of leased property could also include
make-ready costs1 incurred while preparing a property for occupancy, as well as security and
safety improvements and maintenance and repair costs. Because of the high percentage of short-
term leases2 (STL) and their associated annual costs, the Office of Inspector General (OIG)
performed this audit to help Department decision makers manage a vital operation and optimize
the use of scarce financial resources. OIG’s Office of Audits conducted this performance audit
to determine whether the Bureau of Overseas Buildings Operations (OBO) was utilizing STLs
for overseas real property operating leases to fulfill the Department’s long-term requirements
rather than securing leases with longer durations.

       OIG found that OBO and the audited posts in Rome, Mexico City, Tel Aviv, and
Jerusalem rarely utilized real property operating leases with durations longer than 10 years. This
occurred because neither OBO nor posts had an incentive to secure longer lease durations
because of a Department-imposed regulation prohibiting the sharing of operating lease costs with
other occupying Federal agencies when the lease duration is 10 years or longer. As a result, the
duration of most of the Department’s real property operating leases was less than 10 years, and
the Department may be missing opportunities to secure more preferable lease durations and
reduce the vulnerability of losing leased properties that could lead to higher lease costs.

        OIG also found that personnel at the posts audited were not tracking and reporting
make-ready costs specific to each property in our audit sample. This occurred because OBO had
not established guidance and procedures that require posts to track and report costs associated
with each property. Without adequate accounting and reporting of these property costs, the
Department cannot (1) ensure that make-ready costs specific to a property do not exceed the
Foreign Affairs Manual (FAM) limitation, (2) verify that funds were used for legitimate make-
ready costs, and (3) determine the full cost of leasing overseas properties to make fully informed
decisions about whether lease agreements should be renewed or terminated.

        OIG made six recommendations that are intended to enhance real property leasing
options and better control lease costs. Specifically, OIG recommended OBO revise volume 15
of the FAM and the Foreign Affairs Handbook (FAH) to designate all noncapital leases as
operating leases regardless of lease duration and apply current funding and cost sharing
requirements associated with STLs to all operating leases. Additionally, OIG recommended that
the Bureau of the Comptroller and Global Financial Services (CGFS) and the Bureau of
Diplomatic Security (DS), in coordination with OBO, revise volumes 4, 6, and 12 of both the
FAM and the FAH to account for the revisions in volume 15 of the FAM regarding leases. OIG
also recommended OBO establish guidelines and procedures that require posts to track and
report on make-ready funds expended for individual properties to help ensure funds are used for

1
  Per 15 FAM 313.1, “Alterations, Improvements, and Repairs to Short-Term Lease Properties,” make-ready costs 

can include minor alterations, improvements, and repairs. 

2
  Per 15 FAM 121, “General Definitions,” the duration of an STL is less than 10 years. 

                                                  1
                                             UNCLASSIFIED
                                                 UNCLASSIFIED


authorized purposes and do not exceed the Department limitations.

        OIG provided the draft report to OBO, CGFS, and DS on October 9, 2012, for review and
comment. In its November 5, 2012, response, OBO agreed with Recommendations 1, 2, and 6
(see Appendix E). In its November 6, 2012, response, DS agreed with Recommendation 5 (see
Appendix G). In its November 19, 2012, response, CGFS agreed to implement Recommendation
4 but did not agree to implement Recommendation 3 (see Appendix F). Based on the responses,
OIG considers Recommendations 1, 2, 4, 5, and 6 directed to OBO, CGFS, and DS resolved,
pending further action. However, OIG considers Recommendation 3, directed to CGFS,
unresolved.

        Management’s comments have been considered and incorporated into the report as
appropriate. Management’s responses to the recommendations and OIG’s replies are presented
after each recommendation.

                                                   Background
        A significant annual contracting activity performed by the Department is leasing overseas
properties. The United States Code3 grants the Secretary of State the authority to lease or rent
such buildings and grounds for the use of the Foreign Service as may be necessary. The
Secretary of State is also authorized “to provide residential and office space and necessary
related facilities to other agencies abroad whose employees are under the authority of the chief of
mission.”4 This authority is delegated to OBO, who acts as the single real property manager for
all nonmilitary U.S. Government property overseas.

Capital Leases and Operating Leases

        The Federal Accounting Standards Advisory Board (FASAB) established standards of
federal financial accounting and reporting for leases.5 For the lessee,6 a lease is a financing
transaction called a “capital lease” if it meets any one of four specified criteria: (1) lease
transfers ownership to the Government at the end of the lease term, (2) lease contains an option
to purchase the leased property at a bargain price, (3) lease term is equal to 75 percent or more of
the economic life of the leased property, and (4) present value at the beginning of the lease for
the minimum lease payment is 90 percent or more of the fair value of the leased property. If
none of the above criteria applies, the lease is considered an “operating lease.” The lessee treats
capital leases as the acquisition of assets and the incurrence of obligations, while operating leases
are treated as current operating expenses. The FAM7 is consistent with the FASAB in this
regard.

      A capital lease is reported on the balance sheet as both an asset and a liability. The
Government claims depreciation each year on the asset and deducts interest expense on its

3
  22 U.S.C. § 291, “Lease of buildings, etc., for offices, living quarters, heat, light, and equipment.” 

4
  15 FAM 112.2, “Department of State Authorities.” 

5
  Statement of Federal Financial Accounting Standards Number 5, Sept. 1995. 

6
  A lessee is the person or entity renting property under a written lease from the landlord. 

7
  4 FAM 033.8-7, “Capital Leases.” 

                                                      2
                                                 UNCLASSIFIED
                                            UNCLASSIFIED


statement of net cost. Operating leases are reflected on the statement of net cost, with the current
annual rent payments recorded as expenses. In FY 2011, the Department had 24 capital leases
with lease terms ranging from 7 years to 90 years in duration. In contrast, the Department had
9,183 operating leases, most of which had lease terms of less than 10 years.

Short-Term Leases and Long-Term Leases

        In addition to the capital and operating lease designations, the FAM stipulates an
additional lease designation based on duration. The FAM8 defines an STL as a real property
lease with duration of less than 10 years and a long-term lease (LTL) as a real property lease
with duration of 10 years or longer. Real property is defined as land and/or structures such as
office buildings, houses, warehouses, and parking lots. Volume 15 of the FAM, “Overseas
Buildings Operations,” provides guidance for leasing, allows the Department to enter into either
an STL or an LTL for overseas properties, and provides guidance regarding when to consider
LTLs. According to the FAM,9 “Normally, it is in the U.S. Government’s interest to own or
lease on long-term chanceries, ambassadors’ residences, and Marine guard quarters….” The
FAM10 also states, “LTLs allow posts better control of lease costs and greater flexibility and
control of maintenance, renovation, and improvements.” As of September 30, 2011, the
Department had 8,933 overseas real property short-term operating leases with annual operating
rents totaling $458.6 million and 250 long-term operating leases with annual operating rents
totaling $23.6 million. Of the 8,933 short-term operating leases, 1,304 with annual operating
rents totaling $84.6 million had been in existence for more than 10 years; each had original and
renewal durations of less than 10 years.

        The FAM’s requirement to differentiate leases by duration is significant as this dictates
how lease costs are funded. Specifically, the Department, in accordance with the FAM, must
pay all lease costs for leases with duration of 10 years or greater regardless of the occupying
agency, whereas the funding of STLs depends on the occupant. Lease costs for STLs may be
directly charged to the sole occupying agency, shared among multiple occupying agencies, or
funded by the Department if solely occupied by Department personnel. It is important to note
that the Office of Management and Budget does not differentiate leases based on duration; it
only designates between capital and operating leases.

Total Leasing Costs

       Total leasing costs include rental payments and could include make-ready, maintenance
and repair, and Department-required security improvement expenditures necessary to meet
Department security and safety standards.11 Make-ready costs are incurred to prepare a property
for occupancy, whereas maintenance and repair costs are incurred to keep a property in working
condition. For both short-term and long-term operating leases, the FAM12 states, “Every effort

8
  15 FAM 121.

9
  15 FAM 332.1, “When to Consider Long-Term Leases (LTLs).”

10
   Ibid. 

11
   Per 15 FAM 165.2, “Residential, U.S. Government-Owned/Long-Term Leased Properties,” and 15 FAM 313.1,

the Bureau of Diplomatic Security is responsible for funding necessary security improvements and upgrades. 

12
   15 FAM Exhibit 341(1), “Model Lease Explanations and Instructions,” Article Seven, Section B.

                                                 3
                                            UNCLASSIFIED
                                            UNCLASSIFIED


must be made to include provisions that place the responsibility for initial make-ready
improvements, renovations, alterations, repairs, and security upgrades consistent with the
Department’s A-32 standards (local guard program and residential security) with the landlord
and at the landlord’s expense.” However, if posts are unable to negotiate these provisions at the
landlord’s expense, the Department may be responsible for these expenditures. The various
lease costs are funded differently based on the duration of the lease and the use of the property.
See Appendix B.

The Leasing Process

        As the single real property manager for the Department, OBO establishes and oversees all
policies and procedures governing real property at post for personnel under chief of mission
authority. This applies to all nonmilitary land, office, residential, and other functional properties
owned or leased in the name of the U.S. Government, except for “where the U.S. Agency for
International Development (USAID) independently manages its USAID-owned and long-term
leased housing program under its independent authorities.”13

        Posts use Department regulations found in volume 15 of the FAM that include leasing
checklists, a model lease, and other guidance when entering into a lease. Posts are responsible
for maintaining lease file documentation, to include original contracts, leases, renewals,
amendments, and related records. OBO and posts must consider factors such as current
regulations, requirements, cost, budget authority, funding, and flexibility when executing a lease.

         The leasing process for all leases starts with a requirement for either functional space,
such as offices and common-use areas, or residential accommodations for personnel assigned to
a post. Posts research locations and availability of properties, as well as compare similar
properties for costs, terms, and suitability. Posts must submit a justification to OBO for approval
of all functional leases or LTLs; however, posts are authorized to execute residential STLs with
annual rents totaling $25,000 or less per year. In 2007, OBO introduced the Rental Benchmark
Program that allows participating posts to exceed the $25,000 per year rental limit (up to $50,000
per year) resulting in quicker lease processing times and more autonomy for posts.

                                              Objective
       OIG conducted this performance audit to determine whether OBO was utilizing STLs for
overseas real property operating leases to fulfill the Department’s long-term requirements rather
than securing leases with longer durations.




13
     15 FAM 113.1, “Department of State.”
                                                 4
                                            UNCLASSIFIED
                                           UNCLASSIFIED



                                            Audit Results 


Finding A. Department Regulations Inhibit Lease Options and May
Adversely Impact Lease Costs
       OIG found that OBO and the audited posts in Rome, Mexico City, Tel Aviv, and
Jerusalem rarely utilized real property operating leases with durations longer than 10 years. This
occurred because neither OBO nor posts were inclined to secure lease durations longer than
10 years because of a Department-imposed regulation prohibiting the sharing of lease costs with
other occupying Federal agencies when the lease duration is 10 years or longer. As a result, the
duration of most of the Department’s real property operating leases was less than 10 years, and
the Department may be missing opportunities to secure more preferable lease durations and
reduce the vulnerability of losing leased properties that could lead to higher lease costs.

       On May 25, 2012, OIG issued a memorandum to the Under Secretary for Management to
provide interim audit information on this key finding prior to the issuance of the draft report.
(See Appendix C for the memorandum.)

The Department Rarely Utilized Operating Leases With Durations Longer than 10 Years

       On September 30, 2011, the Department had 9,183 overseas real property operating
leases with annual rents totaling about $482 million. Approximately 97 percent of these leases
were STLs, as defined in the FAM to be a lease with terms of less than 10 years. Table 1
presents the number, percentage, and value of annual rents of the Department’s overseas short-
term and long-term operating leases at the end of FY 2011.

Table 1. Department of State Overseas Real Property Operating Leases and Annual Rents
as of Fiscal Year Ending September 30, 2011
                                      Short-Term      Long-Term
                                       Operating      Operating          Totals
                                         Leases         Leases
 Total Number of Overseas
 Operating Leases                              8,933           250              9,183
 Percent of Total                               97.3            2.7             100.0
 Total Annual Rents at the End of
 the Fiscal Year                    $ 458,585,149     $ 23,582,068    $ 482,167,217
Source: The Department’s financial statements auditor, Kearney & Company.

       The Department used STLs to fulfill long-term property requirements. OIG found that
approximately 15 percent (1,304 of 8,933) of the Department’s leases considered STLs had been
acquired before January 1, 2001, and had been renewed at least once in increments of less than
10 years. The Department had leased 92 of these properties for at least 30 years and had leased
an additional 200 STLs from 20 to 30 years. These 1,304 overseas STLs represented nearly
$85 million of approximately $482 million of total annual rent for all overseas operating leases.


                                                5
                                           UNCLASSIFIED
                                               UNCLASSIFIED

Table 2 presents the number, percentage, and annual rent data, by period of acquisition, for
overseas STLs that were in existence at the end of FY 2011.

Table 2. Department of State Overseas Short-Term Real Property Operating Leases as of
Fiscal Year Ending September 30, 2011, by Period of Acquisition
                                        Number of        Percent of    Annual Rent
                                        Short-Term      Short-Term
                                         Operating       Operating
 Period Lease Acquired                    Leases            Leases
 01/01/1947 – 12/31/1980                     92               1.0         $8,325,312
 01/01/1981 – 12/31/1990                    200               2.2         17,659,663
 01/01/1991 – 12/31/2000                   1,012             11.3         58,653,777
 Subtotals                                 1,304             14.5        $84,638,752
 01/01/2001 – 09/30/2011                   7,629             85.4        373,946,397
 Totals                                    8,933            100.0*      $458,585,149
*Percentage adjusted for rounding.

Source: The Department’s financial statements auditor, Kearney & Company.


        OIG reviewed 116 of 1,304 short-term operating leases acquired on or prior to
December 31, 2000, and in existence as of September 30, 2011.14 OIG found that neither OBO
nor the posts audited determined whether the lease durations for the 116 STLs in our audit
sample were more beneficial to the U.S. Government than longer term leases. OBO and posts
did not utilize real property operating leases with durations of 10 years or longer because of a
Department-imposed regulation prohibiting the sharing of lease costs with other occupying
Federal agencies when the lease duration is 10 years or longer.

Tenant Agency Cost Sharing of Long-Term Leases

        The Department’s regulations designate leases 10 years or longer as LTLs and prohibit
sharing lease costs among the Department’s tenant agencies for these leases. However, if the
FAM did not define leases based on the duration of time, the Department could stipulate that the
Department share lease costs with other tenant agencies for all operating leases, including those
leases with durations of 10 years or longer.

       According to the FAM15 and the FAH,16 lease costs for office, functional, and residential
space under LTLs are funded by OBO regardless of the tenant agencies. However, both the
FAM17 and the FAH18 state that lease costs associated with STL functional properties are shared



14
   The 116 leases selected for this audit were located at Embassies in Rome (Italy), Mexico City (Mexico), and Tel 

Aviv (Israel), and at the U.S. Consulate General in Jerusalem. (See Appendix A for detailed sampling 

methodology.)

15
   15 FAM 162.1, “U.S. Government-Owned/Long-Term Leased (GO/LTL) Space.”

16
   6 FAH-5 H-341.12, “Building Operations.”

17
   15 FAM 162.2, “Short-Term Leased (STL) Space.”

18
   6 FAH-5 H-341.12. 

                                                    6
                                               UNCLASSIFIED
                                                UNCLASSIFIED


via International Cooperative Administrative Support Services (ICASS)19 when the property is
occupied by multiple tenant agencies, otherwise the costs are paid entirely by the agency
occupying the facility.

        OIG verified that OBO generally funded lease costs for LTLs regardless of the occupying
agency. Of the 18 LTL properties OIG reviewed,20 OBO had funded the lease costs for 17,
including three properties shared with other agencies and one property occupied by the
Department of Defense. OIG found that ICASS currently funds one of the 18 LTL properties
reviewed contrary to FAM regulations. This consulate office building located in Nuevo Laredo,
Mexico, and occupied by tenant agencies under chief of mission authority, was funded by OBO
until FY 2012. The Mexico lease originated in 1974 and was designated an LTL because of its
duration of 10 years. The lease was extended via amendments for three additional 5-year option
periods and two additional 9-year option periods. The lease end date is now December 2018.
According to OBO, post personnel decided to treat this LTL as an STL because of its current
duration of less than 10 years. However, had the FAM designated all noncapital leases as
operating leases and not distinguished between STLs and LTLs, funding for this lease could have
been shared from its initiation and post would not be funding the lease contrary to the FAM
regulation.

       The Department-imposed policy prohibiting the sharing of LTL costs among tenant
agencies at posts has been the basis for the Department’s reliance on STLs. However, OIG was
unable to find any Federal policy or regulation that prohibited the Department from cost sharing
LTLs with tenant agencies. Office of Management and Budget officials confirmed that they only
designate leases as either capital or operating and that Office of Management and Budget
requirements do not affect whether the Department can cost share leases.

        OBO officials have been in the process of converting LTLs to STLs because of the cost
sharing limitations of leases 10 years or longer. Specifically, a June 2, 2010, information
memorandum from OBO’s Office of the Deputy Director to the Acting OBO Director states that
“OBO/PRE/BAS [Directorate of Planning and Real Estate, Office of Building Acquisitions and
Sales] will endeavor, as a matter of practice, to convert expiring Long-Term Leases (LTL) to
Short-Term Leases (STL) when office or functional space is occupied by tenant agencies.” The
memorandum outlines the steps to be taken by OBO to coordinate with individual posts with
expiring LTLs on the lease conversion process. (See Appendix D for the information
memorandum.) OIG reviewed cables the Department sent to posts with expiring LTLs and
verified the implementation of this strategy. For example, on July 27, 2010, the Department sent
a cable to Vancouver stating:

         1. The lease for Consulate General Vancouver is due to expire on September 30,
         2010. It was originally signed in September 1990 as a Long-Term Lease (LTL)
         when State/Program was the sole occupant and the lease has been funded by OBO

19
   The ICASS system is the principal means by which the Department provides and shares the cost of common
administrative support, to include lease costs, needed to ensure effective operations at its more than 200 diplomatic
and consular posts abroad.
20
   OIG judgmentally selected 18 of 225 overseas property leases designated as LTLs in OBO’s Real Property
Application database as of July 10, 2012. (See Appendix A for detailed sampling methodology.)
                                                     7
                                                UNCLASSIFIED
                                             UNCLASSIFIED

           through its 7400 account. Since then, other agencies have added personnel to
           Consulate General Vancouver’s staffing and State/Program is no longer the sole
           occupant.

           2. Per Ref A, [15 FAM 162.2] when functional space is occupied by multiple
           agencies, those agencies should be charged for their proportionate share of lease
           costs and BOE [Building Operating Expenses] through ICASS. It is therefore
           OBO's policy to renew all leases for space occupied by multiple tenant agencies
           as ICASS-funded short-term leases (STLs).

Vulnerabilities of Short-Term Leases

        The Department’s predominant use of leases with duration less than 10 years can put
posts at risk of higher rental costs and losing properties because of increased competition in the
area, as well as increased costs associated with finding new properties and preparing them for
occupancy. For example, post officials in Rome stated that an influx of private investors heavily
investing in real estate had created increased competition for property. Similarly, post officials
in Tel Aviv explained that competition from expatriates and employees of hi-tech, oil, and other
private companies were driving up housing prices. The officials added that the post had lost
many leases to these competitors. As competition increases in a location, so do rental costs.
Therefore, the ability to negotiate longer lease terms in competitive real estate markets could be
in the U.S. Government’s interest.

        OIG noted another example of a post at risk of losing properties or experiencing higher
rental costs because of the nearly exclusive use of STLs in Mexico City. According to post
officials, the new embassy compound in the Nuevo Polanco area of Mexico City is expected to
open in 2017. Post officials stated they were relocating more of the Department’s residential
properties closer to where the new embassy will be built. However, as of March 2012, 98 of 152
STLs in the Nuevo Polanco area will expire before 2017. Of 152 STLs, 65 were renegotiated or
secured in 2011, all of which will expire before or during 2020. Since most of these leases
expire before or soon after the compound is expected to open in 2017, the post is at risk that
these properties will not be available for renewal or will be available at higher rental costs
because of increased property values once the new embassy compound opens.

        There are costs associated with procuring new leases for the Department. These costs
could include security improvements necessary to meet Department security and safety standards
and make-ready costs. The FAM21 encourages lease terms of longer than 5 years to amortize
make-ready and security upgrade costs thereby reducing the overall yearly lease costs. With
longer duration leases, the Department incurs less administrative and upgrade costs associated
with locating and preparing new properties when shorter duration leases cannot be renewed.
According to Tel Aviv post officials, obtaining a new lease is typically more expensive and labor
intensive than renewing an existing lease.




21
     15 FAM 313.2, “Preference for 5-Year Minimum Term.”
                                                  8
                                             UNCLASSIFIED
                                         UNCLASSIFIED



Foreign Affairs Manual Changes Would Enhance Lease Options and Reduce Vulnerabilities

        The FAM guides posts to secure LTLs to “allow posts better control of lease costs and
greater flexibility and control of maintenance, renovation, and improvements.”22 However, both
the FAM and the FAH prohibit the sharing of real property operating lease costs when the lease
terms are 10 years or longer. In practice, OBO’s directive to share lease costs with other Federal
agencies at posts had taken precedent over utilizing optimum durations for operating leases.
OBO officials could not explain, and OIG could not determine, the rationale for restricting the
sharing of operating lease costs based on the duration of the lease.

         By changing the FAM, the Department would be in the position to negotiate longer lease
durations when preferable and provide posts better control of operating lease costs and greater
flexibility and control of maintenance, renovation, and improvements. OBO officials stated they
would consider entering into longer duration leases if the cost sharing prohibition of leases
10 years or longer was removed from the FAM. They added that sharing these operating lease
costs with other agencies would be consistent with other cost sharing procedures in effect for
managing overseas properties.

          Recommendation 1. OIG recommends that the Bureau of Overseas Buildings
          Operations revise volumes 15 of the Foreign Affairs Manual and Foreign Affairs
          Handbook to designate all noncapital leases as operating leases, regardless of lease
          duration, in accordance with Statements of Federal Financial Accounting Standards.

          OBO Response: OBO concurred with the recommendation, stating that it is revising the
          FAM and the FAH, as appropriate, and expects revisions to be completed by January
          2013.

          OIG Reply: OIG considers the recommendation resolved. The recommendation can be
          closed when OIG reviews and approves documentation showing that OBO has revised
          volumes 15 of the FAM and the FAH to designate all noncapital leases as operating
          leases, regardless of lease duration, in accordance with Statements of Federal Financial
          Accounting Standards.

          Recommendation 2. OIG recommends that the Bureau of Overseas Buildings
          Operations revise volumes 15 of the Foreign Affairs Manual and the Foreign Affairs
          Handbook to apply current funding and cost sharing requirements associated with short-
          term leases to all operating leases.

          OBO Response: OBO concurred with the recommendation, stating that it is revising the
          FAM and the FAH as appropriate and expects to have revisions completed by January
          2013.

          OIG Reply: OIG considers the recommendation resolved. The recommendation can be
          closed when OIG reviews and approves documentation showing that OBO has revised

22
     15 FAM 332.1.
                                              9
                                         UNCLASSIFIED
                               UNCLASSIFIED


volumes 15 of the FAM and the FAH to apply current funding and cost sharing
requirements associated with short-term leases to all operating leases.

Recommendation 3. OIG recommends that the Bureau of the Comptroller and Global
Financial Services, in coordination with the Bureau of Overseas Buildings Operations,
revise volumes 4 of the Foreign Affairs Manual and the Foreign Affairs Handbook to
account for the revisions in volume 15 of the Foreign Affairs Manual regarding leases.

CGFS Response: CGFS stated that it sees no need to revise existing provisions in
volume 4 of the FAM, since, as noted by OIG within the draft report, language in volume
4 of the FAM is consistent with FASAB guidance. However, CGFS also stated that it
will work with OBO to ensure that the language in volumes 15 of the FAM and the FAH,
when revised, is consistent with FASAB guidance articulated in volume 4 of the FAM.

OIG Reply: OIG considers the recommendation unresolved. The recommendation can
be closed when OIG reviews and approves documentation showing that CGFS has
revised volumes 4 of the FAM and the FAH to reflect the changes in lease designations
resulting from OBO’s revisions to volumes 15 of the FAM and the FAH. Although,
volume 4 of the FAM is consistent with the FASAB, OIG noted that sections of volumes
4 of the FAM and the FAH reference “long-term” and “short-term” lease designations,
which should be revised accordingly.

Recommendation 4. OIG recommends that the Bureau of the Comptroller and Global
Financial Services, Office of International Cooperative Administrative Support Services,
in coordination with the Bureau of Overseas Buildings Operations, revise volume 6 of the
Foreign Affairs Handbook to account for the revisions in volume 15 of the Foreign
Affairs Manual regarding leases.

CGFS Response: CGFS stated it would revise, as needed, volume 6 of the FAH after
OBO finalizes and publishes its revisions to volume 15 of the FAM.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and approves documentation showing that CGFS has revised
volume 6 of the FAH to correspond with OBO’s revisions to volume 15 of the FAM.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security, in
coordination with the Bureau of Overseas Buildings Operations, revise volumes 12 of the
Foreign Affairs Manual and the Foreign Affairs Handbook to account for the revisions in
volume 15 of the Foreign Affairs Manual regarding leases.

DS Response: DS concurred with the recommendation, stating it would revise, as
needed, volumes 12 of the FAM and the FAH after OBO finalizes and publishes its
revisions to volumes 15 of the FAM and the FAH.




                                    10
                               UNCLASSIFIED
                             UNCLASSIFIED


OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and approves documentation showing that DS has revised
volumes 12 of the FAM and the FAH to correspond with OBO’s revisions to volumes 15
of the FAM and the FAH.




                                  11
                             UNCLASSIFIED
                                       UNCLASSIFIED




Finding B. Accounting and Reporting of Make-Ready Costs at Posts Need
Improvement
        Rome, Mexico City, Tel Aviv, and Jerusalem post personnel could not account for funds
expended on make-ready costs for any of the 116 properties reviewed in our audit sample. This
occurred because OBO did not have formal procedures to ensure that make-ready costs for
individual STL properties were consistently tracked and reported. Without formal procedures in
place to account for and report these costs, the Department cannot (1) ensure that make-ready
costs specific to a property do not exceed the FAM limitation, (2) verify that funds were used for
legitimate make-ready costs, and (3) determine the full cost of leasing overseas properties to
make fully informed decisions about whether lease agreements should be renewed or terminated.

Tracking and Reporting Make-Ready Costs

        Prior to occupancy, posts must ensure that leased properties are prepared in a manner
that meets safety, hygiene, comfort, and efficiency standards, as well as specific operational
requirements. Preparations for occupancy can include minor alterations, improvements, and
necessary repairs defined as “make-ready” costs in 15 FAM 313.1. The FAM further states that
make-ready costs are allowed when a lease is initially acquired or reassigned and must not
exceed $5,000 but does not differentiate between residential and nonresidential STLs. In
addition, 15 FAM 162.2 states:

       Posts may expend up to $5,000 from D&CP [Diplomatic and Consular Programs]
       (for State program officers) or ICASS funds (for ICASS service providers), as
       appropriate, to prepare Department of State-held STL residential properties for
       occupancy. For all other agencies, the occupying agency pays similar make-ready
       expenses for residential properties. Justification and accounting documentation
       should be maintained in the lease file.

        OIG found that the four posts reviewed could not account for make-ready costs
associated with the 116 properties audited. The lease files for these properties were inconsistent
and unorganized. Although the files generally contained documentation such as lease contracts,
memoranda, invoices, spreadsheets, and e-mails, OIG could not determine the amount spent on
make-ready costs or verify that make-ready expenditures did not exceed the FAM limitation
because documentation was insufficient. OIG made several attempts to obtain documentation
and information from the posts audited to explain how make-ready costs were budgeted, tracked,
and reported. However, posts were either unresponsive to our requests or the information
provided was incomplete. For example, the Mexico City general services officer told OIG that
post could provide average make-ready costs. OIG asked the official to explain how post
calculated that average. However, post did not provide OIG with either the average make-ready
costs or the calculations; therefore, it is unknown whether the post tracks average make-ready
costs on a regular basis. By compiling average make-ready costs, rather than tracking
expenditures for individual properties, post officials cannot verify that expenditures did not
exceed the FAM limitation and cannot determine the total cost of leasing individual properties.
Without knowing the total cost of leasing individual properties, post officials cannot make fully
                                            12
                                       UNCLASSIFIED
                                       UNCLASSIFIED


informed decisions regarding whether to renew or terminate leases for specific properties based
on expenditures.

       Although Rome officials provided OIG with spreadsheets for the make-ready costs
incurred for Department-occupied properties from 2005 to 2011, these spreadsheets did not
include detail identifying the properties receiving the make-ready improvements nor could the
expenditures recorded in the spreadsheets be reconciled to invoices or other substantiating
documentation. Post also provided OIG with financial reports to show funds expended from the
Diplomatic and Consular Program funds for make-ready costs expended for FYs 2005–2011.
However, these reports did not include sufficient detail for OIG to identify the properties or
verify whether the expended funds were used for legitimate purposes. Post did not maintain
records of make-ready costs spent on STL properties occupied by other agencies.

        OIG asked OBO officials to explain how the Department budgets and tracks make-ready
expenditures and ensures compliance with the FAM limitation. OBO officials referred OIG to
sections in the FAM that indicated regional bureaus (Diplomatic and Consular Program funds),
ICASS, or the occupying agency funded make-ready costs. OBO officials also stated, “It is
post’s responsibility to capture and maintain records of these costs in the lease files locally.
OBO has no way of capturing these expenses.” Because make-ready cost preparations are
similar to maintenance and repair costs that are funded by OBO, such as painting, minor repairs,
and supplies, it is important to properly track these expenses to ensure funds are used for
legitimate purposes. OIG determined that posts do not track make-ready costs expended on a per
property basis because there are no requirements to report these expenses for individual
properties and officials do not question expenditures as long as costs do not exceed the
established aggregate funding targets for the fiscal year. Furthermore, the Department lacked
formal guidance and procedures requiring posts to track and report make-ready costs to ensure
compliance with the FAM limitation and ensure funds are used for legitimate purposes.

Guidelines and Procedures Needed For Tracking and Reporting Total Leasing Costs

         As the single real property manager for nonmilitary U.S. Government property overseas,
OBO has the responsibility for establishing, implementing, and overseeing all policies and
procedures governing real property. These responsibilities include establishing policies and
procedures to ensure that funds provided to support overseas real property are properly spent and
accounted for and to oversee the use of funds, regardless of the funding source. The fact that the
total leasing costs for overseas properties are funded by various means and are comprised of
more than the annual rent costs increases the need to account for and oversee funds expended per
property.

        Although the FAM states that justification and accounting documentation for make-ready
expenditures should be maintained in the lease file, OBO did not provide posts with guidelines
and procedures to account for and oversee the funds spent on individual properties. As a result,
the Department cannot (1) ensure that make-ready costs do not exceed the FAM limitation, (2)
verify that funds are used for legitimate make-ready expenditures, and (3) determine the full cost
of leasing overseas properties to make fully informed decisions about whether a lease agreement
should be renewed or terminated.

                                            13
                                       UNCLASSIFIED
                               UNCLASSIFIED




Recommendation 6. OIG recommends the Bureau of Overseas Buildings Operations
establish guidelines and procedures that require posts to track and report on make-ready
funds expended for individual properties to help ensure funds are expended for
authorized purposes and do not exceed the Department of State limitation.

OBO Response: OBO concurred with the recommendation, stating it would expand
verbiage to 15 FAM 162.2 to require posts to report make-ready costs directly to the
entities providing the funds.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and approves documentation showing that OBO has developed
and implemented guidelines and procedures for posts to track and report the use of funds
for make-ready costs by individual property.




                                    14
                               UNCLASSIFIED
                                       UNCLASSIFIED



                                 List of Recommendations 



Recommendation 1. OIG recommends that the Bureau of Overseas Buildings Operations revise
volumes 15 of the Foreign Affairs Manual and Foreign Affairs Handbook to designate all
noncapital leases as operating leases, regardless of lease duration, in accordance with Statements
of Federal Financial Accounting Standards.

Recommendation 2. OIG recommends that the Bureau of Overseas Buildings Operations revise
volumes 15 of the Foreign Affairs Manual and the Foreign Affairs Handbook to apply current
funding and cost sharing requirements associated with short-term leases to all operating leases.

Recommendation 3. OIG recommends that the Bureau of the Comptroller and Global Financial
Services, in coordination with the Bureau of Overseas Buildings Operations, revise volumes 4 of
the Foreign Affairs Manual and the Foreign Affairs Handbook to account for the revisions in
volume 15 of the Foreign Affairs Manual regarding leases.

Recommendation 4. OIG recommends that the Bureau of the Comptroller and Global Financial
Services, Office of International Cooperative Administrative Support Services, in coordination
with the Bureau of Overseas Buildings Operations, revise volume 6 of the Foreign Affairs
Handbook to account for the revisions in volume 15 of the Foreign Affairs Manual regarding
leases.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security, in coordination
with the Bureau of Overseas Buildings Operations, revise volumes 12 of the Foreign Affairs
Manual and the Foreign Affairs Handbook to account for the revisions in volume 15 of the
Foreign Affairs Manual regarding leases.

Recommendation 6. OIG recommends the Bureau of Overseas Buildings Operations establish
guidelines and procedures that require posts to track and report on make-ready funds expended
for individual properties to help ensure funds are expended for authorized purposes and do not
exceed the Department of State limitation.




                                            15
                                       UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                       Appendix A
                                   Scope and Methodology

       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this performance audit to determine whether the Bureau of Overseas
Buildings Operations (OBO) was utilizing short-term leases (STL) for overseas real property
operating leases to fulfill the Department’s long-term requirements rather than securing leases
with longer durations.

        OIG conducted fieldwork for this performance audit from February 2012 to August 2012.
Domestically, fieldwork was primarily performed at OBO in Washington, DC. OIG also
conducted fieldwork overseas at Embassies Rome (Italy), Mexico City (Mexico), and Tel Aviv
(Israel), and at Consulate General Jerusalem.

        This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that OIG plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for the findings and conclusions based on the
audit objective. OIG believes the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

        OIG researched and reviewed Federal laws and regulations to include the United States
Code Title 22; the Foreign Assistance Act of 1961, as amended; and Office of Management and
Budget guidelines. Additionally, OIG reviewed Department policies and additional guidance
related to leasing and lease administration, including the Foreign Affairs Manual (FAM), the
Foreign Affairs Handbook (FAH), and other OBO guidelines.

        OIG interviewed officials from OBO, the Bureau of the Comptroller and Global
Financial Services, Office of International Cooperative Administrative Support Services, and
selected overseas posts to gain an understanding of the leasing process, strategies, guidance on
the administration, oversight, and reporting requirements for leasing costs. OIG also consulted
Office of Management Budget personnel to obtain information on Federal Government
requirements for budgeting and funding of leased properties.

Prior Reports

        OIG identified four reports issued within the last 5 years that were relevant to the audit
objective:

       	 The U.S. Government Accountability Office report, Overreliance on Leasing
          Contributed to High-Risk Designation (GAO-11-879T, August 4, 2011), states that
          operating leases, particularly for long-term needs, could be costing the U.S.
          Government millions of dollars.

       	 Management Letter Related to the Audit of the U.S. Department of State FY 2011
          Financial Statements (AUD/FM-12-06, March 2012). During their audit of the
          Department’s consolidated financial statements as of and for the year ended
                                             16
                                        UNCLASSIFIED
                                       UNCLASSIFIED


           September 30, 2011, the independent certified public accounting firm tested, among
           other things, the accuracy and completeness of the Department's lease inventory,
           which identified several errors. The Real Property Application contained leases with
           incorrect annual lease payment amounts or lease terms, and several leases were
           incorrectly designated as capital leases rather than operating leases.

          Audit of the U.S. Department of State Corrective Action Plan for Real Property
           (AUD/FM-10-28, August 2010), found that the Department did not perform a formal
           root cause analysis to identify the underlying causes of the real property deficiencies
           identified in the Independent Auditor’s Report on the Department of State 2009 and
           2008 Financial Statements (AUD/FM-10-03, December 2009).

       	 Independent Auditor’s Report on the U.S. Department of State 2009 and 2008
          Financial Statements (AUD/FM-10-03, December 2009), identified issues related to
          identification and valuation of assets and liabilities under capital leases and
          completeness and accuracy of real property. Specifically, the Department had not
          completed a reconciliation of the overseas real property listed in its general ledger to
          the properties tracked in its overseas real property management system. Efforts to
          reconcile real property records for a sample of international posts identified numerous
          errors and reconciling items.

Use of Computer-Processed Data

        OIG obtained the universe of short- and long-term overseas real property operating leases
as of September 30, 2011, from Kearney & Company, P.C., OIG’s Financial Statement contract
auditors. OIG requested duplicate data from OBO; however, the data was not provided. To
assess the reliability of the lease data, OIG traced information from the Department’s 2011
audited financial statements to the Kearney & Company data. In addition, OIG reviewed
existing documentation related to the data sources and performed tracing to source documents.
More specifically, OIG obtained copies of original property leases and their amendments from
the lease files at posts and compared this information to the data provided by Kearney &
Company. From these efforts, OIG determined that the data was sufficiently reliable to support
the conclusions and recommendations in this report.

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to managing
STLs. OIG’s review of internal controls and fraud risks indicated an area of concern. OIG
reviewed make-ready costs to determine whether posts properly accounted for these costs and
complied with FAM regulations. Specifically, OIG reviewed criteria and interviewed OBO and
post officials to gain an understanding of the Department’s policies and procedures. OIG also
reviewed lease files and financial data. OIG identified an internal control weakness; the results
are included in Finding B of this report.




                                            17
                                       UNCLASSIFIED
                                        UNCLASSIFIED



Detailed Sampling Methodology for Review of Short-Term Leases

       OIG’s objective was to determine whether OBO was utilizing STLs for overseas real
property operating leases to fulfill the Department’s long-term requirements rather than securing
leases with longer durations.

       Population

       OIG obtained a listing of all Department short- and long-term overseas real property
operating leases as of September 30, 2011, from Kearney & Company, OIG’s financial statement
contract auditors. OIG also requested this data from OBO, but the data was not provided.

        As of September 30, 2011, the Department had 9,183 overseas real property operating
leases, totaling about $482 million in annual rents. Of these leases, 8,933 (approximately
97 percent) were STLs, amounting to about $459 million, and 250 (approximately 3 percent)
were long-term leases (LTL), amounting to about $24 million. Of the 8,933 STLs, 1,304 were
acquired on or prior to December 31, 2000, and represented approximately $85 million of the
approximate $459 million of total STL annual rent. Each of the 1,304 STLs had an original lease
term of less than 10 years and had been renewed in increments of less than 10 years. These
1,304 STLs with total annual rents of about $85 million served as the target population (or
universe) for this audit.

       Selection of Posts and Review of Short-Term Leases

        OIG selected overseas posts at three embassies and a consulate general for site visits and
review using a nonstatistical sampling method known as judgment sampling. Because this
method uses discretionary criteria to effect sample selection, the audit team was able to use
information from its preliminary work to aid in making informed selections. As detailed below
in Table 1, OIG reviewed all STLs renewed on or prior to December 31, 2000, and in existence
as of September 30, 2011, at each of the four posts visited—a total of 116.

        Specifically, the posts selected represent the three bureaus with the largest amount of
annual rents as of September 30, 2011, for STLs that had been in existence on or prior to
December 31, 2000. Criteria used to select specific posts also included the amount of annual
rent, the number of leases per country and per post, and location.

        The Bureau of European and Eurasian Affairs had the largest amount of annual rent of all
bureaus within our sample population of STLs. Within this bureau, Italy had the largest amount
of annual rents as well as the greatest number of STLs. OIG selected Embassy Rome for this
audit because this post was responsible for the most STLs within Italy.

        The Bureau of Western Hemisphere Affairs had the third largest amount of annual rent of
all bureaus within our sample population of STLs. Within this bureau, Mexico had the largest
amount of annual rents as well as the greatest number of STLs. OIG selected Embassy Mexico
City for this audit because this post was responsible for the most STLs within Mexico.

                                             18
                                        UNCLASSIFIED
                                           UNCLASSIFIED

        The Bureau of Near Eastern Affairs had the second largest amount of annual rent of all
bureaus. Within this bureau, Israel had the second largest amount of annual rent and the greatest
number of STLs. OIG selected Embassy Tel Aviv and Consulate General Jerusalem because of
their proximity and number of STLs.


Table 1. Posts Selected and Number of Short-Term Leases in Existence on or Prior to
December 31, 2000, as of September 30, 2011
            Post                     Bureau           Number of         Annual Rents
                                                      Short-Term
                                                         Leases

Embassy Rome                         European and Eurasian
(Italy)                              Affairs (EUR)                          56            $3,223,566
Embassy Mexico City                  Western Hemisphere
(Mexico)                             Affairs (WHA)                          33             1,376,176
Embassy Tel Aviv
(Israel)                             Near Eastern Affairs                   16             1,431,466
                                     (NEA)
Consulate General Jerusalem                                                 11              591,981
                                                        Totals              116           $6,623,189
Source: The Department’s financial statements auditor, Kearney & Company.

        While at these posts, OIG, among other tasks, interviewed officials and reviewed files.
More specifically, OIG interviewed general services officials and financial management officials
and their staff to determine their roles and responsibilities regarding the leasing process. OIG
also reviewed files for the 116 properties to determine whether they contained required
documentation, such as justifications, waivers, leasing documents, and invoices. In addition,
OIG selected a sample of these STL properties with the largest annual operating rents at each
post to visit for verification of their existence, condition, and use. Specifically, OIG selected six
STL properties in Rome, five properties each in both Tel Aviv and Jerusalem, and 10 properties
in Mexico City. If a site was unavailable for a visit, OIG chose the property with the next largest
annual rent to visit instead. No anomalies were found for any of the 26 properties at the four
locations.

Detailed Sampling Methodology for Review of Long-Term Leases

       OIG also sampled the Department’s LTLs to verify how the leases were funded. As of
July 10, 2012, there were 225 LTLs in OBO’s Real Property Application. The FAM1 states:

        Real Property Application (RPA) is the Department of State’s standard automated system
        that supports the management of U.S. Government real property abroad. RPA serves as
        the primary source of information on all foreign real property holdings managed and
        maintained by the Department of State as the single real property manager for U.S.

1
 15 FAM 140, “Post Administrative Software Suite PASS/Real Property Application (RPA) and Work Orders for
Windows (WOW) Module.”
                                                19
                                           UNCLASSIFIED
                                        UNCLASSIFIED


       Government agencies abroad and owned and long-term leased real property holdings
       managed by USAID [U.S. Agency for International Development].

OIG judgmentally selected 18 of 225 LTLs for review. Post location and property use were
among the factors considered in selecting the LTLs. OIG included all LTLs in Italy, Mexico,
and Israel and selected LTLs in other countries to include a variety of leases for land, residences,
and offices. OIG reviewed FY 2011 financial documentation for each lease, including
transaction amounts and appropriations, to determine the source and type of funding used for
each lease. OIG also reviewed lease contract documentation for all 18 LTLs to identify
negotiated annual rental payments and the lease terms, which was reconciled to the financial
documents.




                                             20
                                        UNCLASSIFIED
                                                UNCLASSIFIED



                                                                                                        Appendix B

    Selected Leasing Costs and Funding Responsibilities of Agencies Occupying
                        U.S. Government-Held Properties

ITEM OF COST                 PROPERTY             TYPE         OCCUPANTS                     FUNDING
LEASE COSTSa                 LTL                  O&R          DOS/OA                        OBO
                             STL                  O&R          DOS only                      OBO
                             STL                  O&R          OA only                       OA
                             STL                  O            DOS/OA                        ICASS or OBO/OA
MAKE READYb                  STL                  R            DOS only                      D&CP
                             STL                  R            OA only                       OA
                             STL                  R            DOS/OA                        ICASS
PHYSICAL                     GO/LTL               O            DOS/OA                        OBO or OA
SECURITY                     STL                  O            DOS only                      OBO
UPGRADES                     STL                  O            DOS/OA                        DOS/OA
                             GO/LTL               R            DOS/OA                        DS, OBO, or OA
                             STL (&LQA)           R            DOS/OA                        DS
                             GO                   O&R          DOS/OA                        OBO
MAINTENANCE,
REPAIR, AND                  LTL                  O&R          DOS/OA                        Lessor/OBO
IMPROVEMENTS                 STL                  O&R          DOS/OA                        Lessor
                             GO/LTL               R            Marine security guard         OBO
                             STL                  R            Marine security guard         Lessor
a
 Gross rent including real estate taxes and landlord’s operating expenses (i.e., all costs passed on to the tenant).
b
 Per 15 FAM 313.1, make-ready costs are authorized when a lease is initially acquired or reassigned. It does not
 differentiate between nonresidential and residential STLs.
Source: 15 FAM Exhibit 161, “Matrix of Costs and Funding Sources.”



Legend:
D&CP: Post-held funds allotted under Diplomatic and Consular Programs appropriated by regional bureaus
DOS: Department of State
DS: Bureau of Diplomatic Security
GO/LTL: U.S. Government (Department of State)-owned/long-term leased
ICASS: International Cooperative Administrative Support Services
LQA: Living quarters allowance
O: Office (nonresidential)
OA: Other agency
OBO: Bureau of Overseas Buildings Operations
R: Residential
STL: Short-term lease




                                                     21
                                                UNCLASSIFIED
                                                   UNCLASSIFIED



                                                                                                                                Appendix C

Office of Inspector General Interim Audit Information Memorandum




                                                                               l'I1 ...,1 :-;tnt~
                                                                               luito-"             , ,. [)I'partllwnt
                                                                                          ... tIU ....  [I"llOIrlnwHI nl     "'tato-
                                                                                                                         ul ""  Ult­
                                                                               and          Rma"("a,..tin~
                                                                                     till' Bmilll\·"
                                                                               pnc/IIU'                    ... IIII~ Bwrd
                                                                                                                     HiMn l of  G()\t-mQ~
                                                                                                                            nrC;O\t'mor<'

                                                                               0Di,.,· "f   ' ..~/...,-m.. (••." ,.,.,,/

                                                                                         MAY 25
                                                                                         M;'Y 2 5 2012



   MEMORANDUM
   MEMORANPUM

   TO;                                                             {2
                                        W
                                        .Gei~»
   TO:               M
                     M - Patrick F. Kennedy

    FROM::
    FROM             O [G - IH-Iarold
                     D IG       arold W.    Gci~./7
   SUBJECT::
   SUBJECT           Interim Information on Audit of U.S Department of State Use o f Short-Term
                                                                             UseofShort-Tenn
                     Leases Ovel'$ea5
                            Ovcrseas

   111
   Thee Office of  Inspector
               oflnspcc  tor General (OIG) is eonduding
                                              concluding its audit relating to short·term
                                                                               short-tcrm versus long­
   tcrm
   term leases overseas. and this memorandum
                                  memol1lJldum is to prov   ide you infomlation
                                                        provide     information on a key finding
   contained
   contained. in the draft
                     drnA report before the report is issued.

   O[G detcrmined
   OIG  determined that a Depanment           ofStatc-imposcd regulation
                                Department ofState-impased          rc:aulation prohibiting the sharing oflon,.
                                                                                                          oflong­
   term lease:
        lease costs
               C05U with             occupying
                     ..... ith other occupyi  ng Federal agencies
                                                             aaencies could bebe: inhibiting the Bureau of
   Overseas
   O"ersetU Building!i
              Buildin&s Operat ions (OBO) from conside             ring and/or entering
                                                           considerina           cntcring into long-term
                                                                                               long· term leases
   that may be m ore cost                          ~lt. the Department may be paying more for Icases
                          COlIt beneficial. As a result.                                                  leases
   than necessary
        ne«ssar)' and may oot     not be acquiring the most preferable property loca        tions or lease
                                                                                        locations    Icase terms.
                                                                                                           terms.
   Although 00 no Fedel'l1llaws
                  federal laws or Office of Management
                                                  Manageme nt and Budget (OMB) guidance prohibit     prohibitss the
   sharing of  long-term lease
            oflon,,-term       ease costs. the Department-impa$ed
                                                Department-imposed cost-sharing prohibition is found in the
   Foreign
   Forelgll Af/air$
             Affairs Mtlnllaf
                     Mummf (15    (IS FFAM
                                        AM 162.1).
                                             \62. 1). It[t states that lease costs for long-term
                                                                                        long·term leased
                                                                                                   lensed office.
   functional. and
   functional,  and residential space are to be fundedfUllded by OBO regardless of the occupying agency
   except for
           for certain
               certain U.S. Agency for    for International
                                              intcmalionol Development properties.

   OBO
   080 has instructed
              instruc ted posts to en tler into
                                           inio short-tlmn
                                                 short-Ienn leases
                                                               leoscs rather
                                                                      rlllher than long-term
                                                                                       lon,,-term leases and to  \0
   convert expiring   long-term
            expirinillong·  term leases into
                                           inlo short·term
                                                 short-term leases wi        thout any analysis
                                                                      ..... ithoutlUly  lUlolysis to determine
                                                                                                      dctemlinc which
                                                                                                                   .....hic h
   would be more cost beneficial
                          beneficial to the Department.
                                              Deportment. The major reason given for OBO's short-tcrm         ,hort-Ierm
   lease
   le8$e preference:
         prercrence is that   !case costs are
                         thatlcase          an: shared in accordance with      with 15 FFAM
                                                                                         AM 162.2.
                                                                                                162,2. Specifically,
                                                                                                         Specilit:ally.
   scction
   section b.
           b. "Nonresidential space-joint
                                 space-joinl occupancy,"
                                                occupancy." states,
                                                                 states. "When
                                                                            wWhcn short    -term leased
                                                                                     short-Icnn    leued office or
   functional space is occupied by  by several
                                        sevaal agenc ies,ies. those
                                                              lho5c agencies are chargedcharaed for
                                                                                                  roc their
   proportionate
   proponiODale share
                   share ofleasc
                          of lease costs and BOEBOE {building
                                                      [buildina Opcn1ting
                                                                   operating expenses1         through ICASS
                                                                                  expenscslthrough
   [International
   [International Cooperative
                   Coopenllj"e Administrative
                                  Admini5lnlti\'e Suppan
                                                     Support Services1:'
                                                                 Savie«I.- OBO classifiescill$Sifics IIl1lease:s
                                                                                                     al l leases over 10
   years
   yean to be
            be long-tenn
                lonll·tctm leases inin accordance
                                       aecordance with 15    15 FAM
                                                                 FAM 312.7(12).
                                                                        312.7(12). However.
                                                                                        However. neither
                                                                                                     rocithcr OMB
                                                                                                               OMB nor   nor
   Statements
   SlatemenLS of Federal Financial Accounting Standards (SFF         (SFFAS)  AS) classify
                                                                                   cia$$ify leases
                                                                                              leases by
                                                                                                      by specific
                                                                                                          specific
   lenglhs of
   lcngths of time.
               time. Instead.
                      Inslead. they
                                they classifY
                                      classify leases
                                                leases as
                                                        lIS either
                                                            either operating leases oorr capitalleascs.
                                                                                               capital leases.

   Although 0130
             OBO docsdoes not
                           not classify
                               classify every
                                         every long-ten
                                               long-termn lease
                                                           lease as 115 a capital lease,
                                                                                  lease. OBO treat
                                                                                             trealss all
                                                                                                     alt long­
                                                                                                         long­
   tcnn
   term leases
        leases as
               Ill! acquisitions
                    acquisitions for
                                  for programming,
                                      programming, authorization,
                                                     .o.uthori:(.lllion. and
                                                                          and funding
                                                                              funding purposes in
                                                                                                in aeeo
                                                                                                    accordw  lee
                                                                                                           dance




                                                        22
                                                   UNCLASSIFIED
                                           UNCLASSIFIED





wi th 15 F
with       AM 311
          FAM        _2. I.cases
                 311.2.            mUSl be
                           l.cases must  be considt:red
                                            considered ca    pitallcascs, according 10
                                                          capitallcascs.               to 4 FFAM
                                                                                              AM 033.8 -7-7,, iC
                                                                                                               if
they
thcy ml:!ct S~ F
      meet SF  t:AS
                 AS requ   irements. Further
                      requirements.   Further,, the
                                                the Ft:AM
                                                       AM states
                                                            states that
                                                                   that all
                                                                        all leases
                                                                            leases other
                                                                                    ther than those that must
be
be designated as as capital         "shall be
                    capital leases "shall  be classificd
                                               classified as
                                                           as operating
                                                              opcmting leases." ItIt bis also
                                                                                          also important
                                                                                               impurtanttoto
no te that
note  that OMD    cloe!> not
           OMB dOl:!s    not designate
                              designate between long    -tenn leases
                                                   long-term    leases and short-tcnn
                                                                             shon-tcnn leascs;
                                                                                         leases; OMB
                                                                                                 OMU
distinguishcs
distinguishl'S between
                betwccn operating
                           opemting leases
                                      leases and capital
                                                  capital leases.

OIG     belie\'cs that ~ause
DIG belicves           because aBODBa treats
                                         treats capital leases like
                                                               [ike acquisitions,
                                                                    acquisitions. this treatment
                                                                                        treatment cont ributes
                                                                                                   contributes
to the
    the difliculty ofof sharing lease costs among the Department's
                                                            Department's partner agencies. l1l1owcve
                                                                                                  0wevcr.r, if 15
                                                                                                               I5
FAM 311.2 d.id    id not
                     not stipula
                         stipulatete that alllong         eases be treated as acquisitions
                                                  -tenn leases
                                          all long-term                       acquisitions., OBO
                                                                                              OBO would be
ab lce to
       10 share lease costs with
                              wilh other occupying agencies for    for non-capi tal leases, including those
                                                                       non-capitallcases.
leases
!cnses that
          th3t were longer
                     [anger than
                             Ihan 10 [0 years_  aDO co
                                        years. aBO       uld not explain
                                                      could       eXplain and OIG
                                                                              DIG could not nol find a basis for
why aBO0130 routinely elassi
                          classi fies leases longer than 10 years as long-tenn leases.

               DIG will be recommending
In its report. OIG         recommendi ng thatthllt the Department change the FAM
                                                                               I'-AM to designate
                                                                                        designatt:
lea.~s as either operating leases or
lea~s                             or capi tal leases regardless of length
                                     capitllilca.-.cs              Icnglh of time as appropriate
                                                                          ofllmc      appropria te and
that funding and cost-sharing requirt:ments
                               requirements now associated with wilh short-tcrm
                                                                     short-tenn leases apply to
                                                                                              10 all
                                                                                                  all
operdting leases.
opcrnting

The draft
     droll report relating           auditt will be issued shortly. Ho
                    rel31lng to the audi                                wever.r. if you have any questions
                                                                     Howeve
in the interim. please
                  plea:>e contact me. YouVou may also have a member of your sstuaff    ff contac
                                                                                          cOntactt Eve lyn R.
                                                                                                   Evelyn
Klemstine. Assistant Inspector Gencral
                                     General for Audits,             al (b) (6) @state.g
                                                   Audits. by email at               ~sU!te.goovorat(202)
                                                                                                y or at (202)
633 -(b) (6) or Denise Colchin,
                         Colehin. Director,
                                    Director. Human Capit.al
                                                       Capital and Infmstructure
                                                                    InfrastruetuTC Division. by email al  at
(b) (6) fia)l'sla!c.gov
                stale.gov or at          84--(b) (6)
                              lit (703) 284




                                                        2




                                                23 

                                           UNCLASSIFIED

                                UNCLASSIFIED



                                                                                        Appendix D

       Information Memorandum for Lease Conversion


                                             United States Department of State

                                             Washingron. D ..C
                                             Washington,     C.. 20522..()611
                                                                 ZOSZ2-{)611

                                                  JJUN
                                                    UN - 2 2010
UNCLASSIFIED

INFORMATION MEMORANDUM FOR ACTING DIRECTOR N~
                                           NAMMr(

FROM:        OBOIDD - Lydia Muniz
             OBOIDD-LydiaMuniz            vll
                                          vtl                                   (\(\,,\\
                                                                                    ..\ 0
                                                                                      \0


SUBJECT : Converting E xpiring Long
SUBJECT:                       Long-Term
                                    -Term Leases to Short-Term Leases

      OBOIPREIBAS will endeavor, as a matter of practice, to convert expiring
Long-Term Leases (LTL) to Short
                             Short-- Term Leases (STL) when office or functional
space is occupied by tenant agencies.

       Tenant Agencies must pay for their share of occupancy cos
                                                               costs
                                                                  ts if they occupy
an office or functional property that has a STL and they do not pay if the lease is a
LTL. OBO funds the leasehold costs for all L TL office or functional space
regardless of the occupying agency, except for certain USAID
                                                        USAlD properties (IS
                                                                           (15 FAM
160). After conversion to a STL tenant agencies will be charged for their
proportionate share of lease costs and bui
                                        building
                                           lding operating expenses through TCASS
(155 FAM 162.2 b)
(1               b)..

      The BAS portfo
              portfolio
                     lio manager will do the following:

      • Work with OBOIPREfRPM
                     OBOIPREIRPM to confmn
                                         confirm the LTL status of an expiring
        lease and to identify the conversion candidates
                                               candidates..
      • Obtain Area Management (AM) and OBO     OBO/PRE/OSP
                                                     /PRE/OSP input and will
        confirm the tenant agencies' occupancy.
      • Evaluate the circumstances of the tenancy and evaluate
                                                          eval uate whether a STL is
        more suitable than a L TL.
      • Coordinate with AM in advising posts of the change to a STL upon lease
        renewal and in requesting that they inform their local ICASS councils of
        the l ease change.
      • Coordinate advising the Washington ICASS counsel of      ofthe
                                                                    the change to a
        STL.
      • Clear on AM's
                   AM' s cable to post that explains the L
                                                         LTLTL to ST
                                                                  STLL conversion,
        defines the funding source for the new STLSTL,, and advises whether there
        will be a transition period prior to ICASS funding
                                                     fund ing when OBO will pay
        the occupancy costs for the tenant agency. The cable will also cite the

                                 UNCLASSIFIED
                                 UNCL ASSIFIED




                                     24
                                UNCLASSIFIED
                          UNCLASSIFIED




                           UNCLASSIFIED
                                 -2-
    applicable FAM reference and explain the tenant agencies' responsibility
                                                               respnnsibility
    for their share of the building operating expenses.
•   Obtain LlBA legal guidance so the new lease will include applicable
    provisions about the landlord's maintenance and repair responsibilities.




                           UNCLASSIFIED




                               25 

                          UNCLASSIFIED

                               UNCLASSIFIED




                                                                                   Appendix E

        Bureau of Overseas Buildings Operations Response



                                                      State~ Department of State
                                               United States

                                               Washington,
                                               Washing/on, D
                                                           D .C.
                                                             .C 10520
                                                                 l05!O




UNCLASSIFIED                                    ~ I o\
                                                N   O\ '   5


TO:           OIG - Evelyn R. Klemstine

FROM
FROM::        OBO - Jiirg Hochul i   (Jr
SUBJECT: OBO Comments on Draft Report on Audit of      afth
                                                          th e   u.s.
Department of State's
           afState 's Use of Short-- Term Leases Overseas
                          afShart                Oversells

     The attached responds to the OIG's request for comments for its audit
on the use of short-term
              short-ternl leases.


Attachment:

      As stated.




                              UNCLASSIFIED




                                    26
                               UNCLASSIFIED
                                  UNCLASSIFIED



                                   UNCLASSIFIIED
                                   UNCLASSIF


       of the U.S. Department of State's Use of Short-Term Leases Overseas
 Audit orthe
                                  AUD-HCI-XX-XXI
                                    OBO Comments
                                    080

Recommend
Recommendation        I: oro
                ation t: 010 recommends ilia!
                                            that the Bureau
                                                     Bun::au of Overseas Buildings
Operations revise volwnes 15 J 5 of the Foreign Affai
                                                 Affairs
                                                      r.s Manllal and Foreign Affairs
Handb()()k to designate all noncapitalleases as operating lea
Handbook                                                         ses,, regardless of lease
                                                             leases
duratiion , in accordance with Statements of Federa
durat                                         Federall Financ
                                                           anciial Accounting
Standards_
Standards.

Recommendation
Rccommcndution 2: OIG    IG rccommL'Ild
                            rccommL'Tldss that the Bureau of Overseas Bui
                                                                        Building
                                                                           ldingss
Operations revise volwnes 15 of the Fo  reign Affai
                                     Foreign  Affairr.s~ Manual
                                                         ManMI and the foreign
                                                                       Foreign
Affairrs Handbook to apply ClUTcnt
Affai                              ftmd ing and cost sharing requirements
                           current funding
associated with short
                 hOrl-tcnn
                      -tcnn leases to all operating leases .

       Responsse: DBO
OBO Respon        OBO concurs with these recommendations. There are
,lImost SOO entries referencing long ,mdJor
llimost 500                          landfor short term leases.
                                                        lelues. Wc
                                                                We arc revising
entries as appropriate, and expect to have all revisions completed for OBO
senior mana  ge ment review in Dec
        manage                 Deceember 2012, ,md                AlGIS/DlR
                                                lind submitted to AlGISIDIR
by J,muar
    Jlmuary 2013.

We also note that there are USAID sections
                                      sedions oflhe
                                               of the FAM th at refer 10
                                                                      to STL and
LTL. Gh 'cnen that wc
                   we havc
                       ha\'e no authority to direct USAID, wce would
rewmmend          th e OIG contact its counterparts at USAID in order that
reco mmend that the
their sections can be adjusted acwrdingly.
                                 accordingly.

Rccommendation 6: OIG recommends th e Bureau
Recommendation                              BW'eauofOverseas
                                                      of Overseas Buildings
Operations establish guidelines and procedure
                                    proceduress that require posts to trac
                                                                       trackk and
           make~ready funds expended for inclividual
report on make-ready                     individual propertie
                                                      propertiess to help ensure
funds are expended for authorized purposes and do not exceed the Department of
Stute limittati
State limi      on..
            at ion

OBO ResPOns
       Respon§ee:: 15 FAM 162 .2 pro\
                                    prol' id es guidance directing Posts
                                                                   POSH to maintain
               land ;llccounting
justificlltion and               documcntlltion for mllke-read
                      Iccounting documentation        nHlke-read y funds expended
for individual properties in the lease tiles.
                                           files.

OBO will
    wiII expand
         cxpllnd \'erbillge
                 \'crbillge in 15 FAM 162 .2 to require Posh to report
                                                                re port




                                   UNC
                                   UNCLASSIFfED
                                       LASSIFIED




                                       27 

                                  UNCLASSIFIED

                                   UNCLASSIFIED



                                    UNCLASSIFIED
                                               D

make
 ake-r
     -ready
       ea dy costs di
                   dirrec
                       ectl
                          tly
                            y to the
                                 th e entity providing funds (D&CP [R    [Rt'g
                                                                           t'gion
                                                                               ion a l
Bureaus] . ' CASS, or othe r agency)
Bureaus].                      age ncy) for accounting
                                             accountin g and ve
                                                             verification
                                                                rifi cation..




                                   UNCLASSIFIED




                                        28 

                                   UNCLASSIFIED

                                          UNCLASSIFIED



                                                                                                            Appendix F

Bureau of the Comptroller and Global Financial Services Response


                                                                   LJllIh.:d Slall!:-O !J
                                                                   Unlh.'U Stat..:s    IkpartmcnlllfSlall!
                                                                                          1..' IKl rtm clll of'Sta h:
                                                                   (( '/llIIpfrflfll'''
                                                                      ·olllplrfJfle,.
                                                                   IV"V Ill.
                                                                   IW,V    / ) I n'\ Ir<'/I1t<
                                                                                   , Ih'/111<"
                                                                   ( h,,,./t "'III.
                                                                   ("harl,   '/"". S(\( ~')-III'
                                                                                           _"NII5

 UNC LASS
     LASSIFIED
          IFIED                                                    N
                                                                   NOV 1 9 2012
                                                                       192012
 MEMORAND UM
          UM

 TO:             O
                 D IG
                   IG - Ha
                        Harold
                           rold W. Geise
                                   Geisell

  H~OM :
  FROM :         CG FS - Jamcs
                         James L.       Millett~
                                        M;l1ett~
 SU
 SUBJEC
    BJ ECT:
         T : O IG Audit
                  Audil of U.S. Depanment
                                Department of State Use or
                                                        of Shon-Tenn
                                                           Short-Ternl Leases
                      Dra n
             Overseas Ora It

 In respon
      esponse
           se to the OIG
                     DIG Audit of
                               ofV.S.
                                  U.S. Department of ofStn
                                                       Statte Usc
                                                              Use ofShort-Tenn
 Leases Overseas
         Ovcrseas Draft, the Bureau of the Comptroller and Global Fin   Financial
                                                                           ancial
 Services (CGrS)
           (CGFS) has reviewed the su
                                    subject
                                       bject draft
                                             drail repon
                                                   report a nd olTe
                                                               olTers
                                                                    rs the following
 res ponses.
 responses.

 H.ccommcndalioll 3. 010
 HccomlUcndation         OIG recommends that the Bur   Bureau
                                                           eau of
                                                               orthe
                                                                  the Co
                                                                      Comptroller
                                                                         mptroller and
 Global Financbl
         Financial Services,
                   Serv ices, in coord
                                 coordinat
                                       ination
                                           ion w itlh the l3ureau
                                                          Bureau orOve
                                                                  of Overrscas
                                                                          seas Bu
                                                                               Buiild
                                                                                   ld ings
 Ope
 Operrations, "to rev
                  revise
                      ise volumes 4 of th e Foreign Affairs
                                                       Aflbirs Manu
                                                               Mnnualal and
                                                                        nnd the Foreign
 Affairs Ilnndbook
         Handbook 10to account for
                                 lor the revisions
                                         revis ions in volume
                                                       volu me 15 of the Foreign Affairs
 Manual regardi
           egarding
                 ng lease
                    leasess".

 Thee Office
 Th   OJTicc of In  Inspector
                      spector General (D  (OIGIG)) inden tii lied, within the draft report
                                                                                        report,, that
 CGFS cu currently
             rrently has policy consconsiiste
                                          stent
                                              nt wi
                                                 withth the guid:mce
                                                             guidance issued by the Fede    ederral
 Accounting Standards Advisory Board (FASAB).      ( FASA B). At issue  sslIe is whether 000OBO,, for
 managemenl reasons,
 management         eason s, s hould continue 10  to use the c ururrrent
                                                                     e nt " 'long-term"
                                                                              on g-term" and "shor
                                                                                               "shortt­
 term" de
        designations
            s ignations for leasing !"Cal
                                       real propert
                                             property. y. From a financial
                                                                     financ ial accounting
                                                                                   account ing
 pe rspecti
 perspec  ti ve.
             ve, CG
                  CGFSFS ne
                         neither
                             ither agrees
                                   llgrees nor disagrees with the O IG on Ihis       this matter
                                                                                          matter-- but
 will ad
      addr
         dree s s the operatio
                      opernt ional
                                na l aspec
                                     aspectts of the matter in CG FS comments 1t0o
 reeommendnlion
  ecommendation 4 .

 CGFS ' v iew is that 080 OBO has management'S
                                      management's prcrog:;lIivc
                                                       prerogative to maint
                                                                         maintain
                                                                               ainlhc
                                                                                    the
 de
 designa
    s ignations
          tions as a means or  01' 1001
                                   tool for executing
                                            execuling its function within
                                                                       withi n th
                                                                               thee Depat1mCni
                                                                                    [)epmtment
 and CGCGFSIICASS
          FSIICASS mny lind the desig   designanations
                                                 tions useful
                                                        use fu l for mannging
                                                                     managing real propert
                                                                                      propertyy
 leases overseas. Ilow     ever. such de
                      Il owevcl'.        desig
                                            signation
                                               nationss do not affect internal controls or
 unrlUal financial reporting. Since CG FS and 0130
 annual                                                0 130 serve ditTeren
                                                                      differen lt functions within
 the D ep
        epaa rtm
             rtment
                 ent and cCurrent
                           lltTent CG FS poli cy in vo lumlumee 4 of
                                                                   orlhe
                                                                      the Foreign Affairs

                                            UNC' L
                                            UNC  LASS1F
                                                   ASSI F 1FD
                                                          IE




                                               29
                                          UNCLASSIFIED
                                   UNCLASSIFIED




                                           UNCI .ASSIF IED
                                                 ASSIFIED
                                                   -2-

Manurll
Manual ( FAM)
            FAM) is cor re rect     ot ed by t he O
                             ct as noted          D IG.   CG rS sees no need to revise it
                                                       G, CGFS                            itss
exi
 xisst ing 4 FAM provproviisions. Shoul
                                   Shouldd OBO, however, co nc ur with the O IG and
determ ine thathaIt changes must be made to   \0 vo  lume 15 of the FAM
                                                 volume               FAM and the Foreign
AfTairs   H  andbook    (FAR),
Affairs I landbook (FA R),       CGFS    will work    w ith OBO   to
                                                                  10 ensure t he language in the
revise
revised d  15  FAM
               FAM    and F  AH
                          FA H   and subsequen    t ly
                                                   ly  6  FAM  is consistent  wi
                                                                              witth the FASA
                                                                                        F ASAB B
             Drticulalcd in 4 F AM.
guidance articulated

R~(!olllmcndation
Re  co mmendation 4. D        OIG recommend
                                     recommendss that the B ureau o rth   f thee Compt
                                                                                 Com ptroll
                                                                                         roll er and
GJob~
G  lobal11 Finan
           Financc iall Services, Orfice
                                     O ffice of Internatio
                                                 nternational     Cooperative
                                                            nal Cooperat          dminis trative
                                                                            ive Administ     at ive
Su ppo rt Se
Suppo       Serr vices, in coor   dinatioo n w ith th e Bu reau of
                            coordinati                               Overrseas Buil din
                                                                   ofO\lc              ings
                                                                                          gs
     t!rations. " to rev
O p erations.           evise
                           ise vo
                               \lo lume
                                    um e 6 of thhe Foreign Ajjairs      Handbook
                                                                 ffairs Hal1db  ook to acc
                                                                                        accoo unt for
                                                                                                   fo r
thee rev
th     eviisio
           sionns in vo lum
                          umee 15 or    lh e Fore
                                     o rth        ign Affairs
                                              ureign   Affilir.f Manllal  regarding
                                                                 Ma/1/w/ regard        eases"..
                                                                                  ing leases"

As noted in CG FS's response to Recom            mendation
                                          ecommenda    tion 3, CGFS
                                                               CG FSIICASS
                                                                       /ICASS wiwitlll revise the
6 F A H to account for fo r c hanges in the 15 FAM regarding leases. CG        FSIICASS
                                                                            CGFSIIC     ASS ca n
initiate
in it iate these revisions only after OBOO BO ha    com pleted th eir (lction
                                               hass completed         action under
Recommendat
  ecommendation   ion I and transmiued      thei r changes to the ICASS Ser
                               transm itted their                              vice Cente
                                                                            Service         r.
                                                                                      Center.

If you have any ques
                qu(..'Stions
                      tions o r need additiona
                                     additionall information about the re spo nse, please
                                                                          sponse,
conn ta
co               acdonald. Mana
     tacc t Tim Macdonald,  anagg in g Director,  omc~ o fFimmc
                                       Di rcclor, Office f Finunci:ll
                                                                  iul Po liic y , R
                                                                                  Repo rtin
                                                                                       rtingg
and Ana lys is (CGFS  /DC FO/F PR A) at 202-663 -(b) (6)
                (CGFS/DC




                                        30 

                                   UNCLASSIFIED

                               UNCLASSIFIED



                                                                                Appendix G

              Bureau of Diplomatic Security Response



                                                   United States Depm1ment
                                                                 Department of State

                                                   Washington.
                                                   WashillgTOlI, D.C. 20520

                                                   u'Ww.stale.gOy
                                                   H'WH'.~{(Ite.gov




                                                        NOV
                                                        NOV      6 ,
UNCLASSIFIED
UNCLASSIFLED

INFORMATION MEMO TO OlG - DEPUTY INSPECTOR GENERAL
HAROLD W. GEISEL               f<l-..
                               f<l-.--,
FROM :      DS - Eric J. Boswe't::2/
                         Boswe't:::2/

SUBJECT: DS Comments - Aud  it of U.S
                        Audit     U.S.. Department of State Use of Short­
         Term Leases Overseas - Report Num   ber AUD- HCI -XX
                                         Number                 -XX, dated
                                                            XX-XX,
         October 20 I2
                 2012

     Attached is the Bureau of Diplomatic Security ' s comment on
                                          Security's
Recommendation 5 of the subject report
                                report..

Attachment:
      As stated.




                               UNCLASSIFIED
                               UNCLASSfFIED




                                    31
                               UNCLASSIFIED
                                 UNCLASSIFIED





                      DS Comments to OIG Draft Report
    Audit of U.S. Department of State Use of Short-Term Leases
                            Overseas

1. Recommendation 5. OIG  DIG recommends that the Bureau ofo/Diplomatic
                                                              Diplomatic Security,
                                                                          Security,
   in coordination with the Bureau 0/of Overseas Buildings Operations
                                                           Operations,, revise
   volumes 12 ofo/the
                   the Foreign Affairs Manual and the Foreign Affairs Handbook to
   account/or
   account  for the revisions in volume 150/
                                        15 of the Foreign Affairs Manual regarding
   leases. (page 9)

   DS Comment: (U) DS concurs with Recommendation 5 as edited below .
   Until OBO finalizes and publishes the updated IS FAM, DS cannot finalize and
   publish updated sections of the 12 FAM to match the updates in the IS FAM.
   We recommend the following edits:

  Recommendation 5. OIG recommends that the Bureau of Diplomatic SecuritySecurity,,
  in coordination with the Bureau of Overseas Buildings Operations, revise
  volume 12 of the Foreign Affairs Manual and the Foreign Affairs Handbook, fa  te
  aeeount reF
           fin the as needed, when revisions
                                    rev isions in volume 15 of the Foreign Affairs
  Manual regarding leases are completed and published
                                                published..




                                      32 

                                 UNCLASSIFIED

                               UNCLASSIFIED




Subject:      OIG Draft Report on the Audit of U.S. Department of State Use of
              Short
              Short--Tenn
                     Term Leases Overseas; OS Response to Recommendation 5

Approved : OS - E Boswell
Approved:

        by: (b) (6)
Drafted by:                 DS/C/PSP, ext. 3-(b) (6) 10
                                                      10111120 I2
                                                        /1112012
              (b) (6)                    ext. 5(b) (6)
                            , DS/IP/SPC, ext.
            (b) (6)                         ext.. 5-(b) (6)
                                DSIMGTIPPD, ext

Cleared::
Cleared       DSIDSS - SBultrowicz (OK)
              DS / EX - WTerrini, Acting (OK)
                   EXlMGT - L Watts (OK)
              DS / EXIMGT
              DS / MGTIPPD
                   MGT/PPD - JWeston (OK)
              DSIMGTIPPD - JStewart (OK)
              DS/EXlCFO - RBaldre (OK)
              DSIEXlCFO
              DS
              DS//C - GSmith (O
                              (OK)
                                K)
              DSIIP - CGaIIo
              DSIlP    CGallo (OK)




                                    33
                               UNCLASSIFIED
                                     UNCLASSIFIED




Major Contributors to This Report

Denise Colchin, Director
Human Capital and Infrastructure Division
Office of Audits

Holly Engebretsen, Audit Manager
Human Capital and Infrastructure Division
Office of Audits

Doug Hundley, Auditor
Human Capital and Infrastructure Division
Office of Audits

Nikole Solomon, Auditor
Human Capital and Infrastructure Division
Office of Audits

Zorayma Torres-Alvarez, Auditor
Human Capital and Infrastructure Division
Office of Audits

Alexandra Vega, Management Analyst
Human Capital and Infrastructure Division
Office of Audits




                                          34
                                     UNCLASSIFIED
       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


          CONTACT THE

  OFFICE OF INSPECTOR GENERAL

             HOTLINE

       TO REPORT ILLEGAL

    OR WASTEFUL ACTIVITIES:



         202-647-3320

         800-409-9926

      oighotline@state.gov

          oig.state.gov


   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

